<html>
<title> - OVERVIEW OF 16 YEARS OF INVOLVEMENT IN AFGHANISTAN</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


           OVERVIEW OF 16 YEARS OF INVOLVEMENT IN AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NATIONAL SECURITY

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 1, 2017

                               __________

                           Serial No. 115-43

                               __________

Printed for the use of the Committee on Oversight and Government Reform

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
28-070 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3156415e715244424559545d411f525e5c1f">[email&#160;protected]</a>                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Trey Gowdy, South Carolina           Jim Cooper, Tennessee
Blake Farenthold, Texas              Gerald E. Connolly, Virginia
Virginia Foxx, North Carolina        Robin L. Kelly, Illinois
Thomas Massie, Kentucky              Brenda L. Lawrence, Michigan
Mark Meadows, North Carolina         Bonnie Watson Coleman, New Jersey
Ron DeSantis, Florida                Stacey E. Plaskett, Virgin Islands
Dennis A. Ross, Florida              Val Butler Demings, Florida
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Jimmy Gomez, California
Gary J. Palmer, Alabama
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna, General Counsel
               Brick Christensen, Senior Military Advisor
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                   Subcommittee on National Security

                    Ron DeSantis, Florida, Chairman
Steve Russell, Oklahoma, Vice Chair  Stephen F. Lynch, Massachusetts, 
John J. Duncan, Jr., Tennessee           Ranking Minority Member
Justin Amash, Michigan               Val Butler Demings, Florida
Paul A. Gosar, Arizona               Peter Welch, Vermont
Virginia Foxx, North Carolina        Mark DeSaulnier, California
Jody B. Hice, Georgia                Jimmy Gomez, California
James Comer, Kentucky                Vacancy
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 1, 2017.................................     1

                               WITNESSES

The Hon. John Sopko, Special Inspector General for Afghanistan 
  Reconstruction
    Oral Statement...............................................     4
    Written Statement............................................     6

                                APPENDIX

SIGAR reports submitted for the record by Ranking Member Lynch...    46
SIGAR Memo regarding Afghan National Defense and Security Forces 
  Data Classified or Restricted for SIGAR's October 2017 
  Quarterly Report to the United States Congress, submitted by 
  Inspector General Sopko........................................    47
August 22, 2017, Washington Post article titled, ``Here are Six 
  Costly Failures from America's Longest War. No. 1: Cashmere 
  Goats'' submitted by Mr. Duncan................................    58

 
           OVERVIEW OF 16 YEARS OF INVOLVEMENT IN AFGHANISTAN

                              ----------                              


                      Wednesday, November 1, 2017

                  House of Representatives,
                 Subcommittee on National Security,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 10:30 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Ron DeSantis 
[chairman of the subcommittee] presiding.
    Present: Representatives DeSantis, Russell, Duncan, Gosar, 
Foxx, Hice, Comer, Lynch, Welch, Demings, and DeSaulnier.
    Also Present: Representatives Massie, Jones, and Issa.
    Mr. DeSantis. The Subcommittee on National Security will 
come to order. Without objection, the chair is authorized to 
declare a recess at any time.
    I appreciate the members accommodating the 10:30 start. It 
is supposed to follow a tax reform unveil, but I would note for 
the record that the mysterious tax reform bill is still not 
unveiled to us, so we are waiting breathlessly for that.
    I note the presence of our colleague, Mr. Issa from 
California. I ask unanimous consent that Mr. Issa be allowed to 
fully participate in today's hearing.
    Without objection, it is so ordered.
    On September 11, 2001, radical Islamic terrorists attacked 
our country and killed thousands of innocent men, women, and 
children. These terrorists, aided and abetted by the Taliban, 
used Afghanistan as a safe haven and refuge. These terrorists 
spent years in Afghanistan plotting, waiting for the chance to 
strike us at home.
    Throughout the 1990s, the American people watched as the 
United States suffered terrorist attacks in New York City at 
the Khobar Towers, at our embassies in East Africa, and against 
our USS Cole.
    The failure to act in the run-up to 9/11 emboldened Al 
Qaeda to attempt a far more devastating attack. By 9/11, 2001, 
Afghanistan had become a jihadis' paradise and a useful staging 
ground for Al Qaeda's malevolent designs.
    American forces responded to the 9/11 attacks with a rout 
of both Al Qaeda and Taliban forces. Yet, today, after more 
than 16 years in Afghanistan, it is not clear that things are 
much better than they were after the Taliban first fell.
    Is Afghanistan on the brink of becoming a terrorist dream 
all over again? Are we making the same mistakes over and over 
again? Should we be just done with this entire godforsaken 
place? Or should we be concerned that Isis now has a dangerous 
affiliate, ISIS-K, in Afghanistan that aspires to reach out and 
strike the U.S. homeland?
    How do we get this right? Or can we? We are here today to 
explore whether or not the United States has adapted to the 
hard lessons we have learned in this long war.
    We are also holding this hearing today to follow up on a 
number of projects this committee has investigated over the 
past several years. It is important to keep a spotlight on 
these projects and to make sure that our tax dollars are spent 
effectively and efficiently.
    Having served on Active Duty in Iraq, I want to make sure 
we get this right and ensure Afghanistan does not descend into 
chaos.
    Today, we are fortunate that before the subcommittee we 
have Mr. John Sopko, the Special Inspector General for 
Afghanistan Reconstruction, to testify on the recent work his 
team completed regarding systemic corruption and waste in 
Afghanistan. He has done outstanding work to ensure our 
taxpayer dollars are well-spent.
    Mr. Sopko will also speak on the recent report about AWOL 
Afghan soldiers here in the United States. Thirty-nine of the 
152 Afghans who went AWOL ended up being granted legal status. 
Twenty-seven were arrested or removed, and 13 are still 
unaccounted for as of today. These figures are deeply 
troubling, and I am interested to hear how this happened.
    I had a chance to sit down with Mr. Sopko last week, and I 
can tell you that he is a dedicated public servant who has 
fought corruption and waste for decades.
    We value your time and appreciate all you have done to help 
us in this endeavor.
    So I would like to thank him for coming and look forward to 
hearing his testimony. With that, I will yield to the ranking 
member, the gentleman from Massachusetts, Mr. Lynch, for 5 
minutes.
    Mr. Lynch. Thank you very much, Mr. Chairman.
    And thank you to our witnesses for helping the committee 
with its work.
    Mr. Chairman, this is an extremely timely hearing on our 
ongoing military involvement in Afghanistan. I also want to 
thank the Special Inspector General Sopko for Afghan 
Reconstruction for appearing before us today to help this 
committee carry out its oversight mandate.
    The title of this hearing rightly notes that the U.S. has 
been at war in Afghanistan for over 16 years. This war has 
spanned a generation at a cost of about $714 billion, between 
$714 billion and $2 trillion in taxpayer dollars, and over 
2,400 U.S. casualties.
    While our mission has narrowed to focus on train, advise, 
and assist of the Afghan National Defense and Security Forces, 
and our force levels have sharply dropped from a 2011 peak of 
over 100,000 to the current estimate of 9,800, it is just as 
critical that we have a clear strategy.
    This is why I requested this past June and then again in 
August with my colleague Mr. Welch that the Oversight Committee 
hold a hearing on U.S. strategies for Afghanistan and Iraq.
    Regrettably, the President's recently announced plan for 
Afghanistan fell far short in providing the details necessary 
to understand this purported new direction. He said nothing 
about how many more forces will be needed to carry out this 
mission or how success will be measured. Our forces need a 
clear strategy and guidance from their leaders, and the 
President's plan does not do that.
    Mr. Chairman, without a clear strategy and plan to carry it 
out, it becomes difficult to measure success. And our current 
mission to train the Afghans has been very difficult extremely 
difficult to gauge.
    For years, I have been seeking numbers of how many Afghan 
Security Forces have been trained, and for years SIGAR has had 
difficulty in getting those figures. This is because the 
training program was set up without much metrics, and they are 
still not in place today. A lack of information keeps us from 
conducting oversight, from knowing what we are doing right and 
what we need to improve. I would urge the President to bring to 
Congress a clear and detailed strategy for how he intends to 
get this mission done.
    This brings me to a disturbing development, namely the 
Department of Defense recent decision to retroactively classify 
certain Afghan National Defense and Security Forces-related 
force levels in Afghanistan. Members of Congress need to be 
able to get on the ground, hear from the Americans there, and 
see with their own eyes what is happening.
    As a Member of Congress and ranking member on the National 
Security Subcommittee, I have a duty, as does every Member of 
this House of Representatives, to carry out the oversight 
required by the U.S. Constitution. These kinds of travel 
restrictions that are in place currently are inappropriate and 
highly concerning.
    In addition, the classification measures have become much 
more tightly prescribed in terms of what Mr. Sopko and his team 
can report to Congress in an open forum. I will ask some 
questions about that to determine what information is being 
kept from the American public with respect to our progress or 
lack thereof in Afghanistan.
    With that, Mr. Chairman, I yield back the balance of my 
time.
    Mr. DeSantis. I thank the ranking member.
    The chair notes the presence of our colleagues, the 
gentleman from Kentucky, Mr. Massie, and the gentleman from 
North Carolina, Mr. Jones. I ask unanimous consent that they 
both be allowed to fully participate in today's hearing, 
although I will be very lenient in accepting any objections to 
Mr. Massie's attendance.
    [Laughter.]
    Mr. DeSantis. But without objection, it will be so ordered.
    I am pleased to introduce our witnesses, the Honorable John 
Sopko, Special Inspector General for Afghanistan 
Reconstruction. He is accompanied by Mr. James Cunningham, 
senior analyst for the Special Inspector General for 
Afghanistan Reconstruction. Welcome.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify, so if you can please rise and raise your 
right hand?
    [Witnesses sworn.]
    Mr. DeSantis. Please be seated. All witnesses answered in 
the affirmative.
    In order to allow time for discussion, please limit your 
testimony to 5 minutes. Your whole written statement will be 
made part of the record. As a reminder, the clock in front of 
you shows your remaining time. The light will turn yellow when 
you have 30 seconds left and red when your time is up. Please 
also remember to press the button to turn your microphone on 
before speaking.
    With that, the chair recognizes Mr. Sopko for 5 minutes.

                       WITNESS STATEMENT

                  STATEMENT OF HON. JOHN SOPKO

    Mr. Sopko. Thank you very much, Mr. Chairman, Ranking 
Member Lynch, and members of the subcommittee. It is a pleasure 
to be here to testify today.
    As you know, in my written statement, I discuss in the 
great details the findings, lessons, and recommendations of 
SIGAR's new report on America's 15 years of security sector 
assistance to rebuild the Afghanistan Security Forces.
    With the Afghan conflict in a stalemate, and with a new 
strategy for U.S. security sector assistance getting underway, 
the time is ripe for seeking every opportunity for improvement.
    In that spirit, I appreciate this hearing, which I think is 
an opportune time to look for recommendations for improvement. 
That is something I would like to offer to you today in my oral 
presentation.
    The first recommendation we have is how to utilize, better 
utilize and align, our capabilities with the needs of the 
Afghans. So the first things I would recommend, Mr. Chairman, 
is that DOD should establish and lead an interagency fact-
finding mission to examine the Afghan Security Forces' current 
and future needs, and realign our advisory mission to ensure 
that the right adviser and units are partnered correctly with 
the Afghan soldiers and police.
    The second thing is we need to have someone in charge. So 
DOD and NATO should create designated leads for the Afghan army 
and police responsible for coordinating the training and 
advisory missions from the ministerial to the operational 
level. Now the Afghan special forces and the Afghan Air Force 
have proponent leads right now as part of a comprehensive team 
in place. That is one of the reasons why both of those forces 
are more successful than their peers, and we highlight that 
best practice in our report.
    The third thing is we need to learn from success. So with 
the introduction of more than 150 UH-60 Blackhawk helicopters 
for the Afghan Security Forces, we recommend that you recommend 
that the Army should immediately reach out to the U.S. Air 
Force to capitalize on their best practices from their training 
of Afghan fixed-wing pilots.
    The fourth recommendation, sir, deals with the fact that 
our trainers in Afghanistan need help, and they need help back 
here in the United States. So we recommend that, to ensure 
persistent and comprehensive training while preserving 
institutional knowledge, we recommend that DOD create an 
element in the United States staffed with representatives from 
all of the military and civilian agencies who are specifically 
trained for Afghanistan as advisers to provide additional 
support to the training mission in Afghanistan.
    It is also critically important that those who are assigned 
view this as career-enhancing. Right now, such an assignment 
would be career-ending for many of our military and civilians.
    The fifth point I would focus on is we need to use NATO 
better. To optimize NATO's participation in Afghanistan, we 
recommend that DOD and NATO should thoroughly analyze 
Afghanistan's current advisory needs and each NATO country's 
capabilities as well as their limitations.
    We also need to better understand NATO's decision-making 
process and better synchronize our policymaking with NATO's 
force generation schedules.
    The sixth point I would like to make is we cannot forget 
the important role that State, USAID, the Department of 
Justice, and other U.S. Government and civilian agencies play 
in our fight in Afghanistan. To ensure an effective whole-of-
government approach in Afghanistan, we must support not only 
our U.S. military but also the civilian agencies such as State, 
AID, and Justice, in their missions, which are highly critical 
for accomplishing our national security objectives there. The 
administration and Congress should ensure the civilian agencies 
have the resources they need to make important contributions to 
this mission.
    Lastly, most civilian agencies need to get out of the 
Embassy. In order to support the civilian agencies' ability to 
conduct their important work in Afghanistan, Congress should 
encourage DOD and State to immediately finalize an agreement 
that permits civilian agencies, including SIGAR, to travel 
outside the Kabul Embassy under U.S. military protection 
without second-guessing the U.S. military's well-established 
capacity for providing adequate security.
    Failure to increase freedom of movement for civilian 
personnel will hobble a whole-of-government approach to 
reconstruction and oversight, thus putting the entire mission 
at an unnecessary disadvantage.
    In conclusion, I would urge you that every minute the U.S. 
military has to fill in for a missing civilian agency is 1 
minute that the military is not allowed to do their job.
    Thank you very much.
    [Prepared statement of Mr. Sopko follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. DeSantis. Thank you, Mr. Sopko.
    The chair now recognizes himself for 5 minutes.
    Mr. Sopko, how long have you been SIGAR?
    Mr. Sopko. It is going on 6 years.
    Mr. DeSantis. So how has Afghanistan improved and/or how 
has Afghanistan worsened in your time being the Inspector 
General for Afghanistan?
    Mr. Sopko. It is mixed, Mr. Chairman. The security 
situation has deteriorated dramatically over those 6 years. On 
the other hand, we have had some positive results. I think, in 
particular, the Afghan military, despite the loss of more 
casualties, is actually doing a better job. But they are up 
against very serious opponents. So it is mixed.
    I think the problem now is, with the new strategy, we 
really do not know what State and AID are supposed to do as 
part of that strategy. So we are still observing and hoping we 
can get a better idea on the new strategy going forward.
    Mr. DeSantis. Now you recently returned from Afghanistan. 
You got to meet, I think as you alluded to, a lot of the folks 
on the ground. If just the average American were to come up to 
you and say, ``What is going on in Afghanistan?'' what is that 
elevator speech you would give them?
    Mr. Sopko. It is a stalemate, and the big question is, is 
it a stalemate going down or is it a stalemate going up? And I 
do not have a good answer for that, sir.
    Mr. DeSantis. SIGAR's security assistance lessons learned 
report is very extensive. What would you say the bottom line of 
that report is?
    Mr. Sopko. The bottom line is the U.S. Government was ill-
prepared to conduct the security sector mission. They did not 
understand the size and scope of what they were facing. Our 
normal security sector assistance is to a developed country. We 
are helping, let's say, the Turks with a new weapons system. We 
are helping the Koreans with a new personnel system. This was 
designing and building an entire military and entire police 
force.
    The other problem is we were totally misaligned in our 
capabilities with their needs, disorganized, did not fully 
understand and utilize NATO for the things that they could 
provide. And we have detailed a number of problems with giving 
too complicated systems, having military officers in the U.S. 
trying to teach police, having Air Force pilots teaching 
police, having people who know nothing about personnel systems 
teaching ministries on how to develop personnel systems.
    So that was the big problem that we found. Those are the 
findings and lessons of the report.
    Mr. DeSantis. So I think that you were able to brief this 
report to the administration during their Afghanistan strategy 
review. So does the new strategy announced by the 
administration reflect any of your recommendations?
    Mr. Sopko. Yes, it does. I cannot say we can take credit 
for that, but at least they agree with many of our 
recommendations.
    I think one of our recommendations is, for train, advise, 
assist to work, you have to drive it down below the corps 
level. So you have to get down to the kandak or below. That is 
one of the provisions.
    There are a number of other provisions. I think Mr. 
Cunningham maybe can give you more details. He participated in 
all the briefings. If it is okay, sir?
    Mr. DeSantis. Yes. Sure.
    Mr. Cunningham. Yes, sir. So we participated in that 
failure analysis with the chairman of the joint staff, General 
Dunford. One of the big things we talked about was the 
realignment of our advisory capabilities to the Afghan needs in 
the military and police.
    The current units that are going out were already in pre-
deployment training prior to the release of our failure 
analysis. What we were told is that the new units will have the 
proper training going forward. We just have not yet seen that 
put into practice.
    So cautiously optimistic, but we do know our 
recommendations did go forward to both the Secretary of Defense 
and to the White House.
    Mr. DeSantis. Great.
    Mr. Sopko, how will we know if DOD and State have acted on 
your recommendations? And what outcomes can we expect to see on 
the ground if they follow them?
    I guess the issue is we have things being identified--I 
mean, do I have to hold another hearing? I mean, are we going 
to get a sense in the Congress in relatively short order that 
some of these changes are being made, particularly with the 
State Department, because I think there has been a lot of 
frustration with how they have handled some of this stuff?
    Mr. Sopko. I think there are some low-hanging fruit that 
you can pluck right now. And I think and I hope the 
administration will pluck those and, to draw out that analogy, 
press them into some good policies.
    I think I have touched on five or six of them. We can go 
into more detail on those. There are number of things that can 
be done right away, short-term turnaround.
    The simplest is have the Army pick up the phone and call 
the Air Force on the lessons learned, the best practices from 
training A-29 pilots. It was fantastic. But as far as we know, 
the Army has not even picked up the phone yet.
    I think things like that are just silly. This stove-piping 
is going to be our death. That is one of the things.
    And I am happy to provide and discuss, and I know Mr. 
Cunningham, who wrote the report, we can give you more of those 
examples of--these are fast turnaround things that you should 
be seeing the administration do immediately.
    Mr. DeSantis. Great. My time is up.
    I recognize the ranking member, Mr. Lynch, for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman.
    Again, Mr. Chairman, I want to give you great credit for 
holding this hearing and drilling down on this issue. I really 
do appreciate it.
    Again, thank you, Mr. Sopko.
    Thank you, Mr. Cunningham, for your good work.
    Mr. Sopko, 5 years, going on 6 years now, there is an 
institutional memory that I think you offer us that is very, 
very helpful during our investigations.
    I want to talk about the limitations on your travel. So I 
have been to Afghanistan maybe a dozen times. I know that Mr. 
Russell and Mr. Issa and others here have been frequent flyers 
to Afghanistan and Pakistan on the other side of the border.
    In the past, we have had no problems getting into 
Lashkargah, Kandahar City. They put us in Strykers. We were 
able to drive right down to the Pakistan border, a place called 
Spin Boldak.
    So we have had wide access in our past oversight 
investigations in Afghanistan. But, of course, at that time, we 
had 100,000 troops or thereabouts, so the assets were 
plentiful. And we had great cooperation from General Dunford 
and other generals, going back to General Petraeus.
    What is the situation there now, in terms of your own 
travel?
    Mr. Sopko. Ranking Member Lynch, our travel has been 
restricted. Some of this is because of the point you make. We 
no longer have 100,000, 120,000 coalition forces.
    Part of it is also because of the problem with insider 
attacks. That is something I think even General Dunford 
recently spoke about publicly, that this is a serious problem. 
And I know President Ghani has tried to do something about 
that.
    My concern--and I will say this. You are a high-visibility 
target, sir, when you travel. When the chairman travels, even 
somebody as lowly as I am a high-visibility target. So you 
cannot use the restrictions on your travel the same for the 
average diplomat or SIGAR employee.
    But even with them, there has been a growing reluctance by 
the State Department to let the people go outside of the 
Embassy, even to the Green zone. I think the classic--I will 
cite you two examples, sir, and I do not want to take too much 
of your time, but one was the U.S. military wanted me to see an 
Afghan base and to see how they were protecting the taxpayers' 
dollars by setting up a system to protect fuel. I was to walk 
100 feet with my staff with a U.S. military-assigned protection 
detail that goes over multiple times a day, and the Ambassador 
refused to let us go, even though General Kaiser and General 
Nicholson wanted us to see that.
    That is the problem.
    Mr. Lynch. Okay. I get the sense of that. I will tell you 
what, I am sure that this committee will be having codels over 
in Afghanistan fairly soon. If you could just, not now, but 
make a list of sites that you need to get out to, I have had 
great cooperation from General Dunford and Secretary Mattis, 
for that matter, in terms of travel. So maybe we can combine 
our resources and plan ahead and make sure you get out to where 
you need to go.
    Mr. Sopko. And, Mr. Lynch, the important thing is there is 
an MOU that was in place.
    Mr. Lynch. You are eating all my time. I am sorry.
    Mr. Sopko. Okay.
    Mr. Lynch. We are going to have to deal with that off-line.
    The other question I had was, so we have classification 
issues that were in place for the last 14 or 13 years, and now 
we have some new classification issues. What am I being denied? 
What is the American public being denied access to under the 
new classification regime?
    Mr. Sopko. I would ask to be made part of the record--we 
have a seven-page document laying out everything that has been 
classified. It is basically casualty, force strength, 
equipment, operational readiness, attrition figures, as well as 
performance assessments. That would mean, using the new test, 
it looks like the Afghans can classify anything that is 
embarrassing.
    So I have a list of reports here, that I think all of you 
have probably read, dealing with the Afghan navy that did not 
exist, dealing with the camouflage that did not exist, and 
dealing with an airplane that cost nearly $500 million that 
couldn't fly. Using the new test, I would not be able to tell 
you in a public setting or the American people how their money 
is being spent. So this is a slippery slope, sir, that we are 
now on.
    Mr. Lynch. Mr. Chairman, I would make a motion that we 
accept the reports offered by Inspector General Sopko regarding 
the effect of the new classification regime instituted 
recently.
    Mr. DeSantis. Without objection.
    Do you have copies that you can provide to us?
    Mr. Sopko. I can give you the whole list of the reports, as 
well as the copies. But I am happy to give you also this memo, 
which my staff prepared as to what specifically is now 
classified.
    Mr. DeSantis. Okay. Without objection.
    Mr. Lynch. Thank you, Mr. Chairman.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the vice chairman of the 
committee, Mr. Russell, for 5 minutes.
    Mr. Russell. Thank you, Mr. Chairman, and thank you for 
holding this hearing.
    I guess I have one basic question to begin with, and then 
we will take the discussion from there.
    First off, thanks for what you do, and I mean that with all 
sincerity. But what are the consequences of quitting?
    Mr. Sopko. That is hard for me to describe. The 
consequences for quitting in Afghanistan?
    Mr. Russell. Sure.
    Mr. Sopko. The administration's statement is that, if we 
do, the country will turn into a terrorist haven.
    Mr. Russell. Okay, and I agree with that assessment, and I 
think that ought to frame really everything, Mr. Chairman, that 
this hearing focuses on, because it will be very easy to talk 
about time, money, many other things, and we will hear from 
many members on that. But I am the only Member of Congress in 
this hearing that actually served in Afghanistan. What I would 
take exception to is the notion that the design of the military 
was not thought through.
    I would be happy to talk with you off-line about how it was 
designed, how the Soviet forces made a complete disaster of it, 
where they were not able to retain soldiers, they were not able 
to train them technically, which you have pointed out in the 
hearing today that we actually have had great success with that 
with special forces, with Blackhawk pilots, with a number of 
other things.
    There is a multitude of problems in the country, corruption 
being first and foremost, and everyone on this committee would 
agree that we need to try to curtail that. But I, sir, remember 
when large portions of the country were not even occupied by 
any central government.
    How many warlords occupy Afghanistan today?
    Mr. Sopko. Quite a few, sir.
    Mr. Russell. Where they are in total control of regions, 
Herat, Mazar-e Sharif, maybe 40 percent of Kabul as they are 
turning it into rubble? How many warlords occupy Afghanistan 
today?
    Mr. Sopko. Sir, let me just clarify. We are not talking 
about ultimate success. As I said, I think there has been 
success.
    The report that we released had to do with the training 
mission and training ----
    Mr. Russell. Well, let's visit that, because one of your 
critiques was that the police are not properly trained, and the 
military has no business training the police.
    Are you aware, sir, that when we first began the mission, 
that NATO took on, many voluntarily, the training of the 
police, which was welcomed? In fact, I was a delegate to the 
United Nations Afghan security conference in 2002 that met and 
discussed these very issues in Geneva, Switzerland, after 
pulling my jeans and shirt to try to get to Geneva out of a 
duffel bag after sitting cross-legged on a carpet in 
Afghanistan.
    But we understood the security issues there. And one of the 
problems, sir, was infiltration. They made a disaster of it 
when you had police forces coming in, goodwill, all of this, no 
vetting. And they said: Please come on in, and let's do this. 
We will train you to be police.
    If you go back and examine the blue on green incidents, 
most of them come from law enforcement, not the military.
    NATO, I agree, could be used better in that regard, but we 
have to look at the things for infiltration.
    And with regard to the Army not talking or cooperating, I 
find that very striking since most of our headquarters are 
fully integrated in the Armed Forces there on the ground.
    To point to this fact, you stated that the special forces 
have been quite successful and quite reliable. I would point 
out that the Army trained those, so they obviously know 
something about training to technical ability and giving all of 
that.
    I guess my point is this. While I applaud efforts on 
corruption, what is hard for me as a warrior for most of my 
adult life is it is always people sitting here talking to 
people sitting there pointing bony fingers with red faces 
saying, ``Why is this a failure? Why did this go wrong? We 
should quit. We should pull out.''
    And I will tell you what. For the record, Mr. Chairman, I 
cannot be one of those today. I just cannot. There will be 
follow-on testimony that we will hear from our colleagues, and 
I respect that. But quitting is going to have disastrous 
effects.
    And the more that we feed this narrative that our Nation 
does not have the will and the resolve to get things done is 
part of the problem. Having been a warrior and veteran of 
several wars, I can tell you this, that when we have this 
confusing message coming from Congress and coming from others 
where: We are going to have commitment; no we are not going to 
have commitment. Oh, we are going to have a timeline; no, we 
are not going to have a timeline. Oh, we are going to be here 
for this long with this many troops; no, we are not going to be 
there for this long with this many troops.
    Does that have an impact on how the Afghans see resolve and 
commitment from the United States?
    Mr. Sopko. I do not know, sir.
    Mr. Russell. Well, I do. It has a big impact.
    Mr. Sopko. But, Congressman, let me just tell you, we 
support the mission in Afghanistan. The reason we issued the 
report is to try to draw lessons learned ----
    Mr. Russell. And I favor that.
    Mr. Sopko.--and best practices. So we state the facts as we 
found them. I think you probably would agree in reading the 
report with 90 percent of what we found and what works.
    The whole reason we issue these reports are not to say 
``gotcha'' to the military. And as General Dunford and others 
have been very happy, they confirm and help them in designing 
and implementing better programs for the future.
    So this report is not an attack on our military. It is not 
an attack on our mission, sir. It is trying to help the 
mission.
    Mr. Russell. And I am glad that you established that, 
because that is the foundation that we need to be on, and I am 
grateful for that.
    I thank you for your indulgence, Mr. Chairman. I am out of 
time.
    Mr. DeSantis. The gentleman's time has expired.
    The chair now recognizes Ms. Demings for 5 minutes.
    Ms. Demings. Thank you so much, Mr. Chairman. And I echo 
the ranking member's comments about this particular hearing. I 
am definitely glad to see it. As a new Member of Congress, my 
first codel was to Afghanistan for the purpose of really 
developing a better understanding of the mission there and also 
the overall strategy.
    I also want to take a moment to commend my colleague Mr. 
Russell, as he leaves, for his service.
    I do think, as a law enforcement officer, a career law 
enforcement officer, our overall strategy and exit strategy is 
also very important. So thank you to both of our witnesses for 
being here with us today.
    Mr. Sopko, you said in the quarterly report to Congress 
from SIGAR notes that the military's retroactive classification 
of important information about the Afghan National Defense and 
Security Forces will ``hinder'' your work. I know my colleague 
Mr. Lynch spoke somewhat about the classification system, the 
retroactive classification system.
    Do you believe, and I think you answered in the affirmative 
on this, but do you believe that the American public should 
continue to have access to at least basic data on the Afghan 
National Security Forces?
    Mr. Sopko. Yes, I do, since they are paying for it.
    Ms. Demings. Earlier this week, the New York Times reported 
that Navy Captain Tom Gresback defended the decision to 
classify the information, saying that it was done at the Afghan 
Government's request.
    Do you think that it is an appropriate justification for 
DOD to classify previously unclassified information based on a 
request from the Afghan Government? Why or why not?
    Mr. Sopko. I do not because I believe in transparency, and 
I think the loss of transparency is bad not only for us, but it 
is also bad for the Afghan people.
    Truth, the Bible says that truth will set you free. I think 
somebody else said, ``But it will be uncomfortable in the 
beginning.'' And that is what I told President Ghani. ``Your 
people want to know the truth.''
    Ironically, the stuff that was classified, you know, the 
Taliban know this. They know who was killed. They know all 
about that. The Afghans know about it. The U.S. military knows 
about it. The only people who will not know are the people who 
are paying for it. That is your constituent. That is every one 
of you who pays taxes.
    And I think the American taxpayer has a right to know how 
their money is being spent and whether it is succeeding or not. 
If you classify this, the only people who will not know what is 
going on in Afghanistan are the people who are paying for it.
    Ms. Demings. Has DOD provided you with any other 
justification for classifying metrics that were previously 
unclassified? If so, what was it?
    Mr. Sopko. The only justification was that the Afghans did 
not want it released. The second justification was a 
reinterpretation of some policy on classification, but they 
never gave us a copy of the policy.
    I think the other telling thing is that they will not 
identify who classified the material.
    Ms. Demings. Just last week, Secretary Tillerson visited 
Afghanistan with a heavy security detail and met with the 
Afghan President at Brigham Air Force Base, largely because of 
security considerations. How can SIGAR and congressional 
committees conduct effective oversight of U.S. Government 
programs in Afghanistan if personnel are confined to the most 
secure environments?
    Mr. Sopko. It is extremely difficult, Congresswoman. But as 
I said before, we are high-visible targets. The average USAID, 
DOD, SIGAR official is not that visible.
    But only if we have an MOU with the military providing us 
that protection or with the State Department providing 
protection can we do our jobs. And that can be done. And we had 
an MOU for 6 years with DOD, but now, we have been told, in 90 
days, it disappears.
    Ms. Demings. What sort of support is SIGAR provided in 
Afghanistan by the U.S. military as it carries out its 
oversight responsibilities?
    Mr. Sopko. Actually, we have had great support from the 
U.S. military, and we still have great support from the State 
Department security officials. They have been very good. It is 
just a decision was made by the Ambassador there, and it may 
have been by main State, we do not know, to abrogate our MOU 
and not let us follow that through.
    That is the confusing thing, and we do not think that is 
really helpful to the mission.
    Ms. Demings. Thank you so much.
    Mr. Chairman, I yield back.
    Mr. DeSantis. The gentlelady yields back.
    The chair now recognizes Mr. Duncan from Tennessee for 5 
minutes.
    Mr. Duncan. Thank you, Mr. Chairman.
    Georgie Anne Geyer, the very respected foreign policy 
columnist, wrote several years ago that Americans ``will 
inevitably come to a point where they will see they have to 
have a government that provides services at home or one that 
seeks empire across the globe.''
    We all have seen very many articles, and there have been 
hearings over the years, which have described Afghanistan as 
the graveyard of empires.
    Backing that up, it was interesting to me, on September 4 
of this year, a couple months ago, the New York Times 
international edition carried a story entitled, ``The Empire 
Stopper,'' which said foreign powers have tried to control 
Afghanistan since the 19th century. But the story had a very 
interesting first paragraph. It said, ``When the American 
author James Michener went to Afghanistan to research his work 
of historical fiction, 'Caravans,' it was 1955 and there were 
barely any roads in the country. Yet there were already 
Americans and Russians there jockeying for influence.''
    Continuing the Times quote, it said, ``Later, the book's 
Afghan protagonist would tell an American diplomat that one day 
both America and Russia would invade Afghanistan, and that both 
would come to regret it.''
    Michener wrote that 62 years ago, yet how true it is still 
today.
    Then, finally, I will refer to something that William F. 
Buckley, the icon of conservatism, wrote several years ago. He 
wrote it about Iraq, but it certainly applies to Afghanistan 
even more so. Mr. Buckley started out as a strong supporter of 
the war in Iraq, but before he died, he became a strong 
opponent. He wrote this. He said, ``A respect for the power of 
the United States is engendered by our success in engagements 
in which we take part. A point is reached when tenacity conveys 
not steadfastness of purpose but misapplication of pride.''
    Let me repeat that. ``A point is reached when tenacity 
conveys not steadfastness of purpose but misapplication of 
pride.''
    Buckley continued. He said, ``It can't reasonably be 
disputed that if in the year ahead the situation in Iraq 
continues as bad as it has done in the past year, we will have 
suffered more than another 500 soldiers killed. Where there had 
been skepticism about our venture, there will then be 
contempt.''
    I can tell you that I do not really understand how any true 
fiscal conservative can be in favor of dragging this war on 
forever. We have been there 16 years.
    And I think it is a huge understatement to say that I do 
not agree with the New York Times many times or very often. But 
the New York Times editorial board on October 22nd, just a few 
days ago, published an editorial entitled, ``America's Forever 
Wars,'' pointing out that the U.S. ``has been at war 
continually since the attacks of 9/11 and now has troops in at 
least 172 countries.''
    The board wrote that, so far, the American people have 
seemed to accept all this militarism but, ``It is a very real 
question whether, in addition to endorsing these commitments, 
which have cost trillions of dollars and many lives over 16 
years, they will embrace new entanglements.''
    The Times added that the Congress has spent little time 
considering such issues in a comprehensive way or debating why 
all these deployments are needed.
    So I do appreciate the chairman being willing to have this 
hearing, but it is very sad that we have allowed all these 
trillions of dollars to have been spent, and all of these lives 
that have been lost needlessly. I think it is very, very sad. 
And it is something that I think we are long past the time when 
we have should have gotten out of Afghanistan, and we should 
not keep continuing to drag this out.
    I would like to say, in conclusion, that, Mr. Sopko, I 
really appreciate the work that you have done pointing out the 
billions and billions of dollars' worth of waste over there.
    And I would like to ask unanimous consent that a story from 
the Washington Post dated August 22nd of this year entitled, 
``Here are six costly failures from America's longest war. No. 
1: Cashmere goats.''--and this story ran in the Washington 
Post. I would like to ask unanimous consent that this story be 
included in the record at this point.
    Mr. DeSantis. Without objection.
    Mr. Duncan. And I thank you for yielding me this time.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes Mr. Welch for 5 minutes.
    Mr. Welch. And I am sorry Mr. Russell is not here, because 
I, too, would like to pay respect for his service.
    I want to say to SIGAR that your office has been the ``just 
the facts, ma'am'' approach to what is happening to taxpayer 
dollars, and I believe that it has allowed those who believe 
the policy in Afghanistan is the right direction but it is not 
necessarily being implemented right, and those who question the 
wisdom of the policy, basic information about how so much of 
our spending essentially has evaporated or been transferred to 
Swiss bank accounts by corrupt officials in Afghanistan.
    So, Mr. Chairman, I really want to thank you for this 
hearing, because this office is absolutely essential, whether 
you take the point of view of Mr. Russell or Mr. Duncan about 
what is the right policy.
    Second, the questions about what our policy should be are 
not the responsibility of your office, so I just want to 
acknowledge that.
    Mr. Sopko. That is correct, sir.
    Mr. Welch. You are looking at where the dollars we have 
appropriated are going. Are they going into the mission or are 
they vanishing into thin air?
    Number three, I have major questions about our policy, and 
I thought Mr. Duncan had an excellent quote. This is not about 
our military. I have been to Afghanistan four times, and it is 
extraordinary, extraordinary to me, to see what our soldiers 
are accomplishing under extraordinarily, extraordinarily 
difficult circumstances.
    But the challenge for us, Mr. Chairman, is it is our job to 
give them a policy that gives them a shot at success. That is 
our job. When Mr. Russell is there as a soldier, he has to 
carry out the mission, but we are the ones that have to give it 
to him.
    So looking back at all the SIGAR reports, our dollars are 
being wasted in pretty gross ways, starting with shrink-wrapped 
pallets of cash being flown out of the airbase, starting with 
contracts to deliver water to our soldiers in forward operating 
bases that have to go through Pakistan and where there are 
firefights basically used as negotiating ploys by warlords that 
want to extract much more money in order to allow safe passage 
for that water to get through, to the recent episode of buying 
uniforms that had camouflage designs that are suited for Tahiti 
but not Afghanistan.
    So I really appreciate your recommendations, and they all 
make immense sense to me. And I would endorse those, and 
perhaps our committee could as well.
    But the fundamental question is the policy that is going to 
be advocated by the Congress of the United States and whether 
this thing is working at all.
    In your investigations, can you make some general comments 
about the reliability of accountability systems within the 
Afghani partners that we have, Mr. Sopko?
    Mr. Sopko. Yes, I can, sir.
    Basically, we have serious questions about most of the 
internal accountability capabilities. I actually had a 
conversation with President Ghani on that on my last trip, and 
he acknowledged that there are problems in certain agencies or 
ministries. We actually came to an agreement. He promised to 
issue a presidential decree giving us access to the internal 
books and records and individuals of all the ministries, so we 
can do an in-depth analysis of their internal controls.
    Mr. Welch. Let me ask one question on that. The last trip I 
took to Afghanistan, we had some of our Justice Department 
folks who were there, and they were teaching Afghan Government 
officials about how to detect corruption. And they had to stop 
that program because they were teaching people about how to 
detect corruption who became the people who then implemented 
corruption. Has that changed?
    Mr. Sopko. That is still a serious threat. And that is why 
there was an attempt to set up a vetted anticorruption unit of 
the Afghan police, their prosecutors and judges. And we are 
looking into that.
    The problem is that quite a few of those people were 
supposed to be polygraphed. They were polygraphed, and a good 
number failed the polygraphs. But we have never followed 
through with removing those people.
    So those are some of the questions that we are looking at. 
If you are setting up a vetted unit, by definition, you have to 
follow through with the vetting. You do not polygraph people 
and then let them stay when they fail a polygraph on 
corruption.
    Mr. Welch. I want to thank you and Mr. Cunningham for your 
service.
    I yield back.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes the gentleman from California, Mr. 
Issa, for 5 minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    Good to see you again. I have the greatest respect for our 
Inspector Generals, but particularly those who operate in a 
combat zone, as you have for so many years. And it is 
interesting that one of the complaints you bring to us today, 
one of the very valid ones, is that you are not being given 
enough access in the combat zone to do your job. That is 
something, hopefully, that the committee can help right.
    Every Friday night for most of the year on HBO, Bill Maher, 
a very controversial figure, has his show, and he always has a 
section called, ``New Rules.'' ``New Rules'' always sort of 
mocks, if you will, some of the most egregious things.
    But let me just go through new rules for a moment. New 
rules: Should the United States Government have an absolute 
policy of not paying bribes or other corrupt things in order to 
get border crossings, including, obviously, the delivery of 
water that was just mentioned? Should that be something we will 
not do, period?
    Mr. Sopko. I agree with that.
    Mr. Issa. Okay. But we are doing it. We continue to do it 
in country after country. Isn't that true?
    Mr. Sopko. Sir, I only look at Afghanistan. That is a 
problem that bribes are being paid. But we try to look into 
that if we can and stop it.
    Mr. Issa. I know you do, but when I talk about new rules, 
this is new rules for the Trump administration. This problem 
did not begin with this administration or even the last 
administration.
    So one of the new rules should be that the convoys turn 
around, they report to us, and we deal with either Pakistan or 
Afghanistan and tell them that one of the conditions of our 
forces doing what we do for them is, in fact, that we do not 
pay bribes. We do not do it on the foreign corruption act. We 
should not have our vendors doing it in order to get their 
convoys to our troops. That is a fair statement under what 
should be a new rule, if you will.
    Mr. Sopko. I think the U.S. military is trying to enforce 
that rule right now. Under the current regime there as well as 
the prior one, I think they have been trying to do that as much 
as they can, using conditionality.
    Mr. Issa. Now you transcend two presidential 
administrations, the end of the last one and now this one.
    Mr. Sopko. That is correct.
    Mr. Issa. And it is fair to say that this one is less 
corrupt, at least at the top, then the last one, right?
    Mr. Sopko. Absolutely correct.
    Mr. Issa. So second new rule: We should not support a 
President, whether elected or not, that is putting hundreds of 
millions or billions of dollars into his and his family's 
pockets and tolerate that the way we did under the last 
administration. Fair?
    Mr. Sopko. That is music to my ears, sir.
    Mr. Issa. Okay. I am going through my lessons learned, 
because the argument of today is only really germane if it is 
the argument of the last 16 years that we do not seem to have 
learned.
    The last one, which I think is one for this committee, we 
are nation-building in dozens of nations, including many of 
them in Africa, every day. To be candid, the Peace Corps all 
the way back with John F. Kennedy was part of, if you will, 
shedding to a people what we know that is part of building a 
nation from the bottom up.
    Each President I can think of going back a long way has 
said they are not going to nation-build, if we are going to 
nation-build, let me ask you the most poignant question. You 
mentioned the problems of Active Duty uniformed military 
personnel trying to teach things which they are not 
particularly suited or trained for, correct?
    Mr. Sopko. That is correct.
    Mr. Issa. So shouldn't the new rule be that we develop 
capability either at the State Department and/or at the 
Department of Defense, presumably in the Reserve component, 
and/or somewhere else, that, in fact, finds the people around 
the United States or even outside, around the world, that, in 
fact, can be a productive part of nation-building?
    Mr. Sopko. That is absolutely correct, and that is what we 
are talking about in our latest report, sir.
    Mr. Issa. So if we are going to take away something after 
16 years of--I call it the Groundhog Day in Afghanistan and 
Iraq, of being back at the same point that we were at previous 
times before we let things go awry, and now we are back 
fighting to a point at which we are hoping not to make the same 
mistake again, one of the most important things is we as a 
committee and we as a Nation must find a way to build those 
institutions, whether those countries want to fully cooperate 
or not, find a way to build those institutions. And that means 
we cannot continue to use the same people who, as well-meaning 
and hardworking as they have been, are not prepared or 
qualified to exit the country with the kind of skills--and that 
includes the United States military, if you will, the 
warfighter trying to be a trainer of mayors or bureaucrats.
    Mr. Sopko. That is correct, sir. Again, it is trying to 
align our capabilities. We are not saying we do not have the 
capabilities. The problem is they are not the ones we are 
sending because of the way the system was set up.
    And that is the low-hanging fruit that we can start doing. 
That is what we talk about, do this assessment. Find out what 
their needs are, and then come back and find out what our 
capabilities are, and then make certain the right people go to 
the right units in Afghanistan.
    Mr. Issa. Thank you.
    Thank you, Mr. Chairman.
    Mr. DeSantis. The gentleman's time has expired.
    The chair now recognizes the gentleman from Kentucky, Mr. 
Comer, for 5 minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    Mr. Sopko, thank you so much for being here. Thank you for 
the work that you do. That is so important to us in explaining 
the complexities of what is currently going on with this 
conflict and helping us determine a more successful future for 
this mission.
    I also want to make note that I am proud to represent the 
men and women of Fort Campbell military base in Kentucky. They 
have been deployed to Afghanistan countless times over the past 
16 years, so this issue is very important to me and my 
district.
    My first question, in your testimony, you highlighted the 
challenge that politically constrained timelines pose to 
reconstruction efforts, particularly ANDSF readiness.
    I think it is clear that we need to move away from the 
previous administration's strategy of imposing arbitrary 
timelines and force levels that do not reflect the situation on 
the ground. That being said, I have serious concerns with the 
prospect of an open-ended conflict in Afghanistan that could 
drag on for another 16 years.
    So my question is, can you comment on how to balance the 
need to respond to conditions on the ground while still 
maintaining key benchmarks and goals for the transition to more 
complete Afghan security control?
    Mr. Sopko. I think that can be done, and part of it is 
being done but with oversight like this by Congress. Do not 
give open-ended funding. Do not give open-ended acquiescence to 
a mission. Calling people to task, whether it is at State, AID, 
or DOD, or the IG community, and tell them what it is.
    That is our biggest complaint, sir, is we look at metrics, 
inputs, outputs, and outcomes. And we find agencies that do not 
even know how much they are spending. But they can maybe tell 
us how much they have spent it on, how many shoes they bought, 
how many guns they bought, or whatever. But they do not know 
what the ultimate outcome is.
    And your job, I think, in Congress, if I can be so bold as 
to suggest, is to hold the U.S. Government agencies 
accountable, just like we are trying to hold them accountable 
in Afghanistan.
    But I agree with you on that point, sir.
    Mr. Comer. The next question, in your testimony, you also 
noted that U.S. security sector assistance channels in 
Afghanistan have been meandering and clogged until recently. Do 
you believe the Trump administration's new strategy is helping 
to remedy some of these issues? And what recommendations from 
your report do you think are most important to help improve our 
train, advise, and assist mission?
    Mr. Sopko. Congressman, can I defer to my colleague, Mr. 
Cunningham, who has done most of the briefings and actually 
helped write most of this report?
    Mr. Comer. Absolutely.
    Mr. Cunningham. So we have seen the new administration 
under General Dunford and Secretary of Defense Mattis actually 
embrace a lot of the lessons learned and key findings from our 
report. As I said, during the failure analysis, we were able to 
implement a lot of the recommendations in our report into that 
discussion.
    The problem is some of those recommendations are not being 
implemented today, but the next units going out is where we may 
see some change.
    One of the biggest problems we have is we do not have a 
deployable police capability that can operate in a non-
spermissive environment to develop an Afghan national police 
force. The Department of Defense does not have an 
institutionalized capability, and the civilian agencies cannot 
operate in nonpermissive environments or high-threat 
environments. So we miss that capability, and that is something 
that needs to be discussed.
    The other issue we have noticed is that, at the ministerial 
level, a lot of the advisers are military uniform personnel who 
do not receive the pre-deployment training that the civilian 
advisers receive. The Minister of Defense adviser program run 
by the Department of Defense excludes uniform military 
personnel even though they are conducting the mission at the 
top.
    So, yes, I do think that there can be small steps done to 
realign the mission, and I know that they are under discussion. 
We have just not seen necessarily whether or not they are being 
implemented today.
    Mr. Comer. My last question, your recent report found that 
152 Afghans went AWOL after traveling to the U.S. for training 
between 2005 and 2017.
    First, my question, can you explain why these soldiers are 
traveling to the United States in the first place? Don't we 
have training programs in Afghanistan?
    Mr. Sopko. Sir, the decision was made that they should be 
trained here. There was some training that you can only do here 
in the United States. I mean, that is just the way it is. I 
mean, I cannot really tell you specifically why certain of them 
were done here. Maybe some can be done back more in 
Afghanistan, but I think our capabilities were here.
    Mr. Comer. Has the government done anything to reduce these 
risks in the future?
    Mr. Sopko. Yes and no. The Department of Homeland Security 
was very receptive. The State Department refused to even 
consider one of our simple considerations, and that is maybe 
they should personally interview everyone who gets a visa in 
this program, and they just brushed that aside.
    That is actually something you could help us with. I think 
it is just ridiculous. They interview everybody else who gets a 
visa who comes to the United States.
    Now, we have identified there is a problem with Afghan 
military coming here. Over half of the people going AWOL in the 
United States are Afghans, so, obviously, you have a problem 
here. The State Department just brushed it aside and said we 
see no reason to interview them. Well, if it is good enough to 
interview them for other visas, why not interview them for 
this?
    Mr. Comer. Thank you, Mr. Chairman.
    Mr. DeSantis. The gentleman's time has expired.
    The chair not recognize this the gentleman from Georgia, 
Mr. Hice, for 5 minutes.
    Mr. Hice. Thank you, Mr. Chairman.
    I think this is an extremely important issue here that we 
are talking about with the high numbers going AWOL. Why are 
there so many Afghans that go AWOL? What is the deal here?
    Mr. Sopko. We were not able to interview all of them 
because some of them have disappeared, but we tried to 
interview as many Afghans as we could and also talked to people 
back in Afghanistan and talked to other people.
    The reasons are mixed. Some of it is they are afraid to go 
back. It is a war-torn country, so stay here in the United 
States. Others, they were upset when they found out that to go 
back to their units, they would have to pay bribes to get their 
jobs back, and they refused to do it. Others, I think it is 
just the fact that they are here, and it is a good chance to 
stay, if they could. And they claimed asylum.
    Mr. Hice. Is there any national security threat? Because 
you did not mention that.
    Mr. Sopko. I am certain there is a national security 
threat, particularly, we have some people who just totally 
disappeared, and we do not know where they are. And the State 
Department has not been very helpful to the Department of 
Homeland Security in tracking them down.
    Mr. Hice. Why have they not been responsive to help track 
these individuals down?
    Mr. Sopko. I think you have to ask the State Department 
that. That is the question we have.
    Mr. Hice. Okay. Are there specific individuals we need to 
ask? Have you seen obstruction? Have there been individuals at 
State standing in the way of getting answers?
    Mr. Sopko. No, I cannot say that. I mean, it is the 
bureaucracy.
    Mr. Hice. Someone is running the bureaucracy.
    As you mentioned, we do not know who these people are. We 
do not know where they are. There is a certain number that are 
gone. We need to get a handle on this. Where at the State 
Department is the bottleneck?
    Mr. Sopko. We would be happy to brief you and give you 
information on where the bottleneck is, sir.
    Mr. Hice. Okay, I would like that.
    How much money has been spent, do you know, on training 
these Afghans here in the U.S?
    Mr. Sopko. I do not know offhand. Let me ask my staff. We 
do not have that number, sir, but we would be happy to get it.
    Mr. Hice. Could you get that number for me?
    Mr. Sopko. Absolutely.
    Mr. Hice. All right, I would appreciate that.
    Now you alluded to, a few moments ago, that it is just kind 
of the way it is, but is there a better way to train these 
individuals than to bring them back here to the United States? 
Wouldn't it potentially save a lot of taxpayer money if we were 
able to train them there in their homeland?
    Mr. Sopko. Well, Congressman, it probably would save money, 
but sometimes they have to do it here. I would actually cite 
one of the places where they do the training, and they have had 
few people skip town or go AWOL, is right in your hometown. It 
is at the Air Force Base Moody ----
    Mr. Hice. Right.
    Mr. Sopko.--where the best place to train those pilots is 
in Moody, and this is one of the success stories we highlight.
    It is interesting, in that area, and I think it would be 
worthwhile to talk to the Air Force in Moody about why they are 
so successful in training those pilots and mechanics, and they 
go back. So that is one of the success stories.
    And I think there, they have to do the training there.
    Mr. Hice. Right, and I would agree. And I have been there, 
and I have seen what you are talking about. And it is a success 
story.
    I guess my thoughts are going beyond Moody and some 
specialized places where it is succeeding and the overall 
potential of a national security threat when we are bringing 
individuals here that we do not know anything really about. 
They are getting military training. They go AWOL. It sounds as 
though there is a significant portion of this program that 
could, wisely, be done in someplace other than the United 
States. Would you agree with that?
    Mr. Sopko. I think it is worth looking into. We do discuss 
that. But I think a first spot is just requiring in-person 
interviews for these military trainees by the State Department.
    Mr. Hice. And you are saying that is not happening.
    Mr. Sopko. That is not happening, and that is what the 
State Department refused to acknowledge as being helpful.
    Mr. Hice. All right. And did I hear you correctly moments 
ago, too, that this does happen with others but is not 
happening with Afghans? Is that correct?
    Mr. Sopko. Yes. That is what is so perplexing, because for 
every other type of visa, they do in-person interviews, but 
they do not do it for these people.
    Mr. Hice. So is there a specific policy where these 
individuals are waived from that particular part of vetting?
    Mr. Sopko. As far as I know, it is a policy of the State 
Department, not the policy of the Department ----
    Mr. Hice. Just for Afghans?
    Mr. Sopko. I cannot speak beyond that, sir.
    Mr. Hice. Who can give me an answer to that?
    Mr. Sopko. I will have the staff who worked on it get back 
to you, sir.
    Mr. Hice. Please do so.
    Listen, again, I want to join my other colleagues in 
thanking you for the great work that you do and for your 
forthright answers here in this hearing.
    With that, Mr. Chairman, I yield back. Thank you.
    Mr. DeSantis. The gentleman yields back.
    The chair now recognizes Mr. Massie from Kentucky for 5 
minutes.
    Mr. Massie. Thank you, Mr. Chairman.
    Mr. Sopko, thank you for your service in this capacity. I 
also appreciate your matter-of-fact answers.
    Can you give us the total tab so far for Afghan 
reconstruction since we have started in, roughly, 2012? If you 
want to round it off to the nearest billion?
    [Laughter.]
    Mr. Sopko. I should have that at my fingertips. It is 
$120.78 billion for reconstruction, and that is through 
September 30, 2017. But that does not include the $7.42 billion 
that is in the pipeline. That means it has been authorized, 
appropriated, but not yet spent.
    Mr. Massie. So the last time you were here 18 months ago, 
it was $113 billion, roughly. Now we are up to $120 billion, 
and you say there is $7.4 billion in the pipeline.
    The reason I ask that question is that stands in contrast 
to something we heard our President say, that we are fighting 
terrorism, we are not nation-building, in Afghanistan. It 
sounds like another $7.4 billion in the pipeline might go to 
nation-building.
    I noticed in our own budget, we are not cutting the money 
for ``nation-building.''
    Something else that is a little incongruous that I would 
like to get out on the table here is I used to see pictures on 
the Internet of our soldiers standing in poppy fields, and I 
never reposted those because I thought they might be 
photoshopped, because I knew we had a war on drugs going on in 
Afghanistan that, ostensibly, we are eradicating poppy fields 
over there.
    How much have we spent, to date, eradicating poppy and in 
the counternarcotics effort in total in Afghanistan?
    Mr. Sopko. We cannot break it down to eradication. But 
altogether, in fighting narcotics, it is $8.6 billion.
    Mr. Massie. $8.6 billion. I know I asked this question 18 
months ago, but I will ask it again.
    Has production of narcotics in Afghanistan gone up or down 
since 2002 when we started spending that money?
    Mr. Sopko. You know, I do not have the exact, going back to 
2002. I can tell you from 2015, it has gone up 43 percent.
    Mr. Massie. Forty-three percent in 2 years, and we are 
still spending billions of dollars over there to eradicate 
poppy.
    I was at a town hall-type meeting this weekend in a factory 
in my district, and one of the attendees was a gulf veteran. He 
told me he has been standing in poppy fields and marijuana 
fields in Afghanistan. So now I know the pictures are real that 
I see. Those crops are there.
    He struggled, and I struggled, to try to explain to the 
rest of the constituents in the room how that could be 
possible.
    How is that possible that we are spending billions of 
dollars, and we can see it everywhere, yet it is not being 
destroyed?
    Mr. Sopko. It is possible for a couple reasons.
    First of all, it is very difficult because of just the 
security situation.
    But the second reason is we have no strategy. I have 
complained for the last 3 or 4 years, ``Where is the 
counternarcotics strategy?'' Just like we have no strategy for 
fighting corruption. You need a strategy. Then when you have 
the strategy, as the good congressman--then you look at inputs, 
outputs, and outcomes. You get metrics. We have no metrics. We 
have no strategy.
    Now, what concerns me is that General Nicholson or General 
Dunford testify that 60 percent of the funding going to the 
Taliban terrorists come from narcotics trafficking, and we have 
no strategy?
    Now, I think we all read in the press about how we focused 
on ISIS and their relationship to oil production, and we bombed 
the heck out of that oil production to cut off that funding 
source.
    Poor General Nicholson is trying to fight the Taliban, and 
no one is focusing on 60 percent of the funding going to the 
Taliban. Now, that is a serious problem.
    That is the proverbial elephant in the room. We are never 
going to win in Afghanistan if we do not focus on the whole 
narcotics problem.
    Mr. Massie. In my brief time left, I want to talk about 
what winning looks like, because I think there is also this 
public perception that stands in stark contrast to what I have 
heard from you and also from our Secretary of State recently, 
who I think is more of a realist here. There is this public 
notion that we have routed the Taliban, and if we leave, they 
will come back to power.
    Yet Secretary Tillerson says that, basically, we are 
fighting to have a better negotiating position with the Taliban 
and.
    Have we routed the Taliban? And when we leave, will they be 
gone?
    Mr. Sopko. I am under oath. We have not routed the Taliban. 
But I am not the best person to answer the questions on how 
well we have done on the warfighting. I do reconstruction.
    But, you know, I just have to be honest with you. We have 
not routed the Taliban.
    Mr. Massie. I yield back my time.
    Mr. DeSantis. The gentlemen's time has expired.
    The chair now recognizes Ms. Foxx for 5 minutes.
    Ms. Foxx. Thank you, Mr. Chairman. And thanks to the 
witnesses who are here today.
    Mr. Sopko, are you optimistic that the security situation 
will improve enough to allow your team out to survey and 
oversee the reconstruction efforts?
    Mr. Sopko. I believe the security situation will improve, 
and I believe, if the MOU with the Department of Defense and 
the State Department on security is written and is carried out, 
we will be able to get out, not as much as we would like, but 
we would at least be able to get out.
    Ms. Foxx. And what is your view on the President's proposed 
troop increase impacting your ability to conduct oversight?
    Mr. Sopko. I think it can only help, ma'am. Although most 
of the advisers in the troop increase will be on advising and 
training. We hope there will be an increase in what we call 
guardian angels, not only for them but also for others who need 
their protection. So we think it is a positive step.
    Ms. Foxx. And you have may have said this before I came in, 
but how has the DOD performed in the last year in getting 
facilities built quickly and at a much fairer price to 
taxpayers?
    Mr. Sopko. I cannot give an assessment on that yet. We are 
actually looking at that right now, and I cannot really tell 
you what the conclusions are. They are trying. Let's just say 
that. I think this military team here under General Nicholson 
has done more than anyone on trying to hold the Afghans 
accountable on corruption and other things. But I just cannot 
just give you an estimate on overall success.
    Ms. Foxx. Let me ask you a couple specific areas. What is 
the status of the Ministry of Defense building? Last year 
experienced some significant, lengthy construction delays. 
Could you give us an update on the status of that building?
    Mr. Sopko. Well, we made six inspection visits to that 
building and identified a number of deficiencies. And they 
accepted our recommendations, DOD did, and I think they have 
implemented, in that case, all of our recommendations.
    Ms. Foxx. Thank you very much.
    I yield back, Mr. Chairman.
    Mr. DeSantis. The gentlewoman yields back.
    The chair now recognizes the gentleman from North Carolina, 
Mr. Jones, for 5 minutes.
    Mr. Jones. Mr. Chairman, thank you very much. I appreciate 
you holding this hearing.
    I wrote to President Trump on July 18 of this year asking 
him if he was going to increase the number of troops, to please 
come to Congress first and let us have a debate on the future 
of Afghanistan, since we all know we have been there 16 years.
    In that letter I wrote to the President, I noted that he 
had made 30 comments before he became a candidate and while he 
was a candidate about the waste in Afghanistan. I am just going 
to use one of four that I put in the letter.
    ``In 2013, you tweeted, 'Let's get out of Afghanistan. Our 
troops are being killed by the Afghanis we train, and we waste 
billions there. Nonsense. Rebuild the United States of 
America.'"
    That is just one of 30 comments he made about the waste, 
fraud, and abuse in Afghanistan.
    The next sentence, I said, ``Mr. President, I agree with 
those remarks and so does the 31st Commandant of the Marine 
Corps, my friend and unofficial adviser, General Chuck Krulak. 
As he said in a recent email to me, no one has ever conquered 
Afghanistan, and many have tried. We will join the list of 
nations that have tried and failed.''
    Mr. Sopko, I met with you many times officially and 
unofficially with other Members of Congress. When I listen to 
what you have shared today and what you shared many times 
before, and the waste, fraud, and abuse continues to go on, it 
is a tribal nation. Everyone who has ever been to Afghanistan, 
from the Russians to Alexander the Great and the British, have 
never changed one thing in the world.
    I know there are people who do not appreciate you and your 
staff and what you do, because many of them are in Congress, 
not here on this committee today, that would like to cut your 
funding. That was a story in the newspaper a year ago. This MOU 
issue probably is because they are dragging their feet, but 
that is neither here nor there. I do not know that as a fact.
    Because when the American people see the stories that come 
out from your report, every Member of Congress gets that same 
report, these stories, I have a handout, front and back, that I 
have a list of 50 stories about waste, fraud, and abuse that I 
give to my constituents back in the district.
    And I guess what I want to try to get to is that, at some 
point in time, someone like yourself, General Nicholson, if he 
is overseeing Afghanistan, has got to say to the American 
people: We have spent billions and trillions of dollars to 
rebuild Afghanistan, and we cannot build your bridges and your 
roads right here in America.
    At some point in time, this Congress needs to have a debate 
after 16 years and let us have a new debate on the future of 
Afghanistan, because I will tell you truthfully that at least 
90 Members of the House, both parties, that were not here in 
2001. I was here in 2001. And when I hear this waste, fraud, 
and abuse consistently for 16 years--I am on the on Armed 
Services Committee--it distresses me as a taxpayer.
    I have the Marine Base Camp Lejeune in my district. I have 
talked to Marines, Active Duty and retirees, who have been to 
Afghanistan five, six, and seven times. And they say nothing 
will ever change.
    That has nothing to do with the work that you and your 
staff do. You all are the truth-tellers. The problem is that 
Congress continues to pass bills that waste money over there, 
and we cannot even get a debate.
    So my last point, very quickly, if you are here 10 years 
from now, and I will not be here 10 years from now, would you 
be willing to tell the Members of Congress that the American 
people who are now financially broke as a Nation have done 
about all they can do in Afghanistan?
    I yield back.
    Mr. Sopko. Congressman, as you well know, and we have had 
this conversation, I do not to policy. I do process.
    But I do promise you, the first day I am out of this job, 
because it is not my job to talk policy, I am happy to publicly 
tell you what I really think about our mission in Afghanistan. 
But until then, it is not my job to do that.
    I support this committee, the chairman, the ranking member, 
for holding the hearings. I am a history buff. There is a 
famous quote by President Lincoln: Give the people the facts 
and the country will be free.
    That is what our job is. We give you the facts, and you as 
the policymakers decide whatever you do.
    I think Congressman Welch was very accurate on that. 
Whatever side you are on this issue, I just state the facts. 
You know, I am like the umpire. We had a ballgame that was last 
night. I am calling strikes and outs and whatever. Some people 
may not like me, but I am still supporting the game.
    And that is what my job is. And your job is to then take 
those facts and handle them appropriately.
    Mr. DeSantis. Thank you, the gentleman from North Carolina.
    I want to thank the witnesses. I want to thank Mr. Sopko 
for your service. I know you have taken trips over there. It is 
not an easy place to get to or get around. I think you have 
given us a lot of really good information. And we thank you for 
that.
    Obviously, there is some low-hanging fruit that we want to 
get to, both on the congressional side but also, hopefully, 
with the Trump administration.
    So the hearing record will be open for 2 weeks for any 
member to submit an opening statement or questions for the 
record.
    Mr. DeSantis. If there is no further business, without 
objection, the subcommittee stands adjourned.
    [Whereupon, at 11:54 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

    Publicly published SIGAR reports can be found at https://
www.sigar.mil/AllReports/.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
